                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              AUDIT OF THE TEXAS
                                              NATIONAL EMERGENCY GRANT




                                                              Date Issued:   September 28, 2007
                                                              Report Number: 04-07-007-03-390
U.S. Department of Labor                               September 2007
Office of Inspector General                            Audit of the Texas National
Office of Audit                                        Emergency Grant
BRIEFLY…                                               WHAT OIG FOUND
Highlights of Report Number: 04-07-007-03 390, to      OIG found that with few exceptions, Texas spent
the Assistant Secretary for Employment and Training.
                                                       its NEG funds in accordance with Federal
                                                       requirements.
WHY READ THE REPORT
                                                       However, TWC did not report activities and
In August and September, 2005, Hurricanes              outcomes accurately.
Katrina and Rita hit the Louisiana, Mississippi
and Texas coasts. These storms caused                      •   Forty-eight percent of tested participants
estimated losses of more than $100 billion. In                 were not enrolled in the NEG program.
response, President Bush declared a major
disaster for each of these States under the                •   Thirty-seven percent of participants who
authority of the Robert T. Stafford Disaster                   had exited the program or should have
Relief and Emergency Assistance Act.                           exited the program were not reported as
                                                               having exited.
To assist in the recovery efforts, the
Employment and Training Administration                     •   Program eligibility was not sufficiently
awarded the Texas Workforce Commission                         documented for 63 percent of tested
(TWC) a $75 million National Emergency Grant                   participants. Additionally, local boards
(NEG). The purpose of the NEG grant was to                     failed to document their decision to
create temporary jobs to assist in disaster                    provide intensive services as required
cleanup and restoration efforts, and to provide                by program regulations.
training opportunities that might lead to
permanent employment.                                  WHAT OIG RECOMMENDED
WHY OIG DID THE AUDIT                                  We recommended that the Assistant Secretary
                                                       for Employment and Training ensure that TWC:
The OIG conducted a performance audit to
ensure that the TWC spent NEG funds in                     •   Not report individuals as participants for
accordance with Federal requirements, and                      whom an eligibility determination has
reported NEG activities and outcomes                           not been made or who only received
accurately. Our audit covered expenditures of                  self-help services through the
$20,924,190 and NEG activities and outcomes                    WorkInTexas.com system.
as of March 2006.
                                                           •   Report NEG program exits consistent
READ THE FULL REPORT                                           with Federal policies and procedures.

To view the report, including the scope,                   •   Adequately document participant
methodology, and full agency response, go to:                  eligibility and decisions to provide
                                                               intensive services.
http://www.oig.dol.gov/public/reports/oa/2007/04
-07-007-03-390.pdf                                     In response to the draft report, TWC stated that
                                                       it believes the report does not adequately
                                                       portray the scale of the statewide disasters.
                                                       TWC also stated that it believes it properly
                                                       reported the number of NEG program
                                                       participants.
                                                                      Audit of the Texas National Emergency Grant



Table of Contents
EXECUTIVE SUMMARY ................................................................................................ 3

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

   Tested grant expenditures were allowable, reasonable, allocable,
   and accurately reported ............................................................................................ 8

   TWC did not report National Emergency Grant activities and outcomes
   accurately................................................................................................................... 8

EXHIBIT ........................................................................................................................ 19

   A. Performance Test Results by Sample Type..................................................... 21

APPENDICES ............................................................................................................... 23

   A. Background ...................................................................................................... 245

   B. Objectives, Scope, Methodology, and Criteria ................................................ 29

   C. Acronyms and Abbreviations ........................................................................... 33

   D. Auditee's Response ........................................................................................... 35




U.S. Department of Labor—Office of Inspector General                                                                             1
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                        U.S. Department of Labor—Office of Inspector General
                                                                 Report No. 04-07-007-03-390
                                                  Audit of the Texas National Emergency Grant




Executive Summary
The Office of the Inspector General conducted a performance audit of the $75 million
National Emergency Grant (NEG) awarded to the Texas Workforce Commission (TWC)
to assist individuals affected by hurricanes Katrina or Rita. The grant's period of
performance was August 29, 2005 through August 31, 2007. The audit covered grant
expenditures and performance results from September 1, 2005, through March 31,
2006.

Traditionally, disaster grants provide a variety of services to eligible individuals,
including the temporary employment of individuals to help provide humanitarian
assistance and to work on projects that perform cleaning, repair and renovation of
facilities and lands located in the disaster area. The grant awarded to Texas in
response to Hurricane Katrina and Rita was different, as it was intended to serve
hurricane victims from Texas and evacuees from Louisiana, Mississippi and Alabama.

Our overall objectives were to answer the following questions:

       • Were the NEG expenditures allowable, reasonable, allocable, and reported
         accurately?

       • Were the NEG activities and outcomes reported accurately?

Results

On August 29, 2005, Hurricane Katrina made landfall along the Gulf Coast of the United
States. Katrina was one of the deadliest and costliest natural disasters in U. S. history.
Hundreds of thousands of residents of southern Louisiana and Mississippi were left
unemployed. Many thousands of refugees were evacuated to Texas.

Despite the large number of evacuees relocated to Texas and in need of emergency
assistance, we found that, with few exceptions, tested grant expenditures were
allowable, reasonable, properly allocated and accurately reported.

TWC did not report NEG activities and outcomes accurately. Performance results were
frequently overstated, understated, or not supported by adequate documentation.

       • Forty-eight percent (57 of 120) of tested individuals who were reported as
         participants were not enrolled in the program. We found no evidence that
         these individuals’ eligibility had been assessed. In most instances, they
         received nothing more than self-help services that are universally available
         through the Wagner-Peyser funded WorkInTexas.com employment services




U.S. Department of Labor—Office of Inspector General                                       3
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant


       • system. Additionally, two other participants were ineligible for the program
         because they failed to register for selective service.

          TWC officials stated that they requested guidance from the Employment and
          Training Administration (ETA) regarding technical specifications for program
          reporting in April 2006, but did not receive guidance until December 2006 that
          excluded WorkinTexas.com self-service customers from the definition of an
          NEG participant. The self-service customers will now be reported in the
          comment field.

       • Thirty-seven percent (29 of 78) of participants who had exited or who should
         have been exited from the program were not reported as having exited or
         continued to be enrolled past their required exit date.

       • Program eligibility was not sufficiently documented for 63 percent (75 of 120)
         of tested participants. Additionally, local board officials failed to document
         their decision to provide intensive services to 52 percent (29 of 56) of those
         participants reported as having received intensive services, as required by 20
         Code of Federal Regulations (CFR), section 663.160(b).

Given ETA's guidance regarding NEG grantees' initial determinations of eligibility to
participate in NEG programs, and its assurance that costs would not be disallowed for
individuals subsequently determined to be ineligible (Training and Employment
Guidance Letter No. 16-03, Change 3), we have not questioned costs related to
ineligible participants.

Auditee Response

In its response to the draft report, the TWC expressed concern that the Executive
Summary of OIG’s audit report does not adequately portray the scale of the statewide
disasters.

TWC disputes that they improperly included self-service individuals in the participant
count. Additionally, TWC claims that they never claimed that the WorkInTexas.com
self-service participants were ever determined eligible or enrolled. TWC stated that, by
virtue of including these individuals in the NEG participant counts, it was asserting that
these individuals were hurricane-affected and received NEG-funded one-stop services.

OIG Conclusion

The OIG recognizes the scale of the state-wide disasters and acknowledges TWC’s
significant role in responding to the needs of the tens of thousands of individuals who
sought their services.




 4                                       U.S. Department of Labor—Office of Inspector General
                                                                 Report No. 04-07-007-03-390
                                                  Audit of the Texas National Emergency Grant


We disagree with TWC's statement that it properly reported the number of individuals
enrolled in the NEG program. The NEG program is a specially funded program under
the Workforce Investment Act, and program participants must meet certain criteria to be
enrolled. TWC acknowledges in their response that they never asserted that these
individuals were determined eligible or enrolled. Counting all individuals who received
any services from TWC as NEG program participants overstates the level of services
these individuals received. Further, excluding these individuals from the NEG
participant count would not have denied those individuals any services that they
received or were entitled to receive.

Recommendations

We recommend that the Assistant Secretary for Employment and Training ensure that
TWC:

1.     Not report as NEG participants individuals for whom an eligibility
       determination has not been made or individuals who only receive self-help
       services through the Wagner-Peyser funded WorkInTexas.com system.

2.     Verify that local workforce boards comply with WIA Section 189(h), which
       requires the registration of certain individuals for selective service.

3.     Report NEG program exits consistent with Federal policies as described in TEGL
       17-05 and the Quarterly Progress Report Definitions of Performance
       Factors.

4.     Comply with TEGL No. 16-03, Change No. 3, 5.b., regarding documentation of
       participant eligibility.

5.     Adhere to 20 CFR, section 663.160(b), which requires program staff to
       document their decision to provide intensive services.




U.S. Department of Labor—Office of Inspector General                                       5
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                        U.S. Department of Labor—Office of Inspector General
                                                                 Report No. 04-07-007-03-390
                                                     Audit of the Texas National Emergency Grant




U.S. Department of Labor                   Office of Inspector General
                                           Washington, DC 20210




                         Assistant Inspector General’s Report


Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

We conducted a performance audit of the National Emergency Grant (NEG), grant
number EM-15072-05-60, awarded to the Texas Workforce Commission (TWC). The
Employment and Training Administration (ETA) awarded the $75 million grant to help
TWC serve victims of hurricanes Katrina and Rita during the period August 29, 2005
through August 31, 2007. The funds provided short-term disaster relief employment;
adjustment assistance that included core, intensive and training services; and
supportive services as determined necessary.

Our audit covered the period September 1, 2005, through March 31, 2006. Our audit
objectives were to answer the following questions:

       • Were the NEG expenditures allowable, reasonable, allocable, and reported
         accurately?

       • Were the NEG activities and outcomes reported accurately?

We conducted our audit in accordance with Government Auditing Standards for
performance audits. Our audit objectives, scope, methodology and criteria are detailed
in Appendix B.




U.S. Department of Labor—Office of Inspector General                                          7
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant


Objective 1 – Were the NEG Expenditures Allowable, Reasonable, Allocable, and
Reported Accurately?

Results

On August 29, 2005, Hurricane Katrina made landfall along the Gulf Coast of the United
States. The effects of Katrina were catastrophic and widespread. It was one of the
deadliest and costliest natural disasters in U. S. history. Hundreds of thousands of
residents of southern Louisiana and Mississippi were left unemployed. Many thousands
of refugees were evacuated to Texas.

As of March 31, 2006, TWC reported total NEG expenditures of $51,951,362. These
expenditures were made at the grantee level and at all 28 of the State's Local
Workforce Development Areas (WDA). We selected and tested transactions at four
locations, including the TWC administrative offices and the following three WDAs:
Capital Area, Gulf Coast, and East Texas. The four locations we visited had combined
reported expenditures of $20,924,190. We tested 223 transactions with combined
expenditures of $9,377,350, or 18 percent of total reported expenditures.

Given the large number of evacuees to Texas in need of emergency assistance, we
found that, overall, TWC spent its NEG funds in accordance with Federal requirements.
Tested grant expenditures were found to be allowable, reasonable, properly allocated
and accurately reported.


Objective 2 – Were NEG Activities and Outcomes Reported Accurately

Results and Findings

TWC did not report NEG activities and outcomes accurately. Cumulative performance
results for the quarter ending March 31, 2006, were overstated, understated, or not
supported by adequate documentation.

NEG recipients are required to report cumulative financial and performance information
using the ETA 9104 Quarterly Report Form (Quarterly Report). TWC provided us with
two versions of the Quarterly Report for the quarter ended March 31, 2006. The initial
version reported a total of 42,114 participants and the subsequent report revised this
number to 61,397.

Because there was such a large increase in the number of participants reported on the
revised Quarterly Report, we selected one sample of participants from the universe of
participants who were included on both the initial and revised Quarterly Reports and a
second sample from the universe of participants who were unique to the revised report.
We randomly selected 60 participants from each of these universes and tested their




8                                        U.S. Department of Labor—Office of Inspector General
                                                                 Report No. 04-07-007-03-390
                                                  Audit of the Texas National Emergency Grant


eligibility and the accuracy of the performance results reported for each participant. The
results of our tests are summarized below and by sample type at the Exhibit found of
page 13 of the report. We found reported performance was:

       • overstated, as to the number of enrollments, because 48 percent (57 of 120)
         of tested individuals who were reported as participants were not enrolled in the
         program. We found no evidence these individuals’ eligibility had been
         assessed, and in most instances, they did not receive any services beyond
         Wagner-Peyser funded self-help employment services. Additionally, two other
         participants were ineligible for the program because they failed to register for
         selective service.

       • understated, as to the number of exiters, because 37 percent (29 of 78) of the
         tested participants who were exited or should have exited from the program
         were not reported as having exited on the Quarterly Report, or continued to be
         enrolled past their required exit date.

       • not supported because program eligibility was not sufficiently documented for
         63 percent (75 of 120) of tested participants. Further, the receipt of intensive
         services was not supported for 52 percent (29 of 56) of those tested
         participants who were reported as having received those services.

TEGL No. 16-03, Change 3, Paragraph 5.b, "Expanded Eligibility for Disaster Relief
Employment," states the following:

       Documentation of Participant Eligibility. In view of the catastrophic nature
       of Hurricane Katrina, many individuals will not have the documentation
       necessary for a determination of eligibility to participate in the program.
       Other ways should be used to document eligibility such as self-certification
       or unemployment insurance (UI) or disaster unemployment assistance
       (DUA) information provided by partner programs. . . . The grantee must
       have systems in place to review eligibility determinations once the project
       has begun to operate more routinely and needed documentation becomes
       more readily available. If such systems are in place and the grantee
       subsequently identifies individuals who were not eligible to participate as a
       result of the review, costs incurred prior to the determination will not be
       disallowed.

Given ETA's guidance regarding NEG grantees' initial determinations of eligibility to
participate in NEG programs, and its assurance that costs would not be disallowed for
individuals subsequently determined to be ineligible, we did not question costs related
to ineligible participants.




U.S. Department of Labor—Office of Inspector General                                       9
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




Reported Enrollments Were Overstated

The TWC incorrectly reported individuals (57 of 120 tested) as program participants.
We found no evidence that TWC had assessed the eligibility of these 57 individuals.
Additionally, we found no evidence that 50 of the 57 individuals received any services
beyond self-help employment services that were universally available.

Fifty-six of 60 individuals we tested from the universe of participants uniquely reported
on the revised Quarterly Report were not enrolled in the NEG program. Their eligibility
for the program was not assessed and TWC provided no evidence that most of the
individuals received any services beyond the Wagner-Peyser funded self-help
employment services available to anyone seeking those services. One participant was
enrolled in the Workforce Investment Act (WIA) Youth Program but not the NEG
program.

ETA’s NEG application procedures were published in Federal Register Part V (Vol. 69,
No. 81). Part VII(C) of those procedures instructs grant recipients to submit a Quarterly
Report Form (ETA 9104) on actual performance to date. This form includes the total
number of program participants.

WIA, Title I, Subtitle A, Section 101(34), defines a program participant as an individual
who has been determined eligible and is receiving services under a program authorized
under Title I of WIA.

The Flexibility for Displaced Workers Act authorized special rules for NEGs related to
Gulf of Mexico hurricanes in calendar year 2005.1 These special rules include expanded
eligibility as described at Public Law 109-72, section 2(b). Eligible participants include
those:

        • individuals who had been temporarily or permanently dislocated from their jobs
          as a result of the disaster;

        • the long-term unemployed; and

        • eligible dislocated workers as defined by WIA section 101(9). This definition
          generally includes those who have been terminated or laid off, the
          unemployed who were formerly self-employed, and displaced homemakers.



1
 The Flexibility for Displaced Workers Act was initially passed to aid victims of Hurricane Katrina, but it
was later amended by Public Law 109-148, Section 5012, to include all Gulf of Mexico hurricanes in
calendar year 2005.




10                                               U.S. Department of Labor—Office of Inspector General
                                                                         Report No. 04-07-007-03-390
                                                  Audit of the Texas National Emergency Grant




Subsequent to hurricanes Katrina and Rita, the TWC devised special methods to
identify participants who were adversely impacted by either or both hurricanes. Initially,
the participants’ names were entered into The Workforce Investment System of Texas
(TWIST) with a “KAT" identifier added to their names. Later, job seekers were allowed
to identify themselves as Hurricane Katrina or Hurricane Rita evacuees when they
registered. If the job seeker identified himself/herself as an evacuee, a capital letter “H”
was then displayed on the job seeker’s home page. TWC used the hurricane evacuee
flag to identify and count individuals as NEG participants. However, TWC provided no
evidence that the individuals who registered themselves in the Wagner-Peyser funded
WorkInTexas.com (WIT) system met with One-Stop staff, received an eligibility
determination, or received any services funded by the NEG grant. Section 6.A.2 of
Training and Employment Guidance Letter (TEGL) 17-05, Common Measures Policy for
the Employment and Training Administration’s (ETA) Performance Accountability
System and Related Performance Issues, directs that individuals who receive core
services in a self-service, facilitated self-help, or staff-assisted modality funded by the
Wagner-Peyser Act are to be included in the Wagner-Peyser performance
accountability system, but not under WIA.

In addition to the individuals that TWC should not have reported as program
participants, we found two participants who should not have been enrolled because they
failed to register for selective service. In each case, the participant’s file documented
that the person had not registered for selective service. Yet, in each instance, the
person was enrolled in the program.

WIA Section 189(h) states in part:

       The Secretary shall ensure that each individual participating in any
       program or activity established under this title, or receiving any assistance
       or benefit under this title, has not violated section 3 of the Military
       Selective Service Act (50 U.S.C. App. 453) by not presenting and
       submitting to registration as required pursuant to such section….

We did not examine a statistically valid sample of the participant universe; therefore, we
could not accurately estimate TWC’s overstatement of the participant count. However,
our test results from those unique to the revised Quarterly Report (93 percent not
enrolled) indicate that most of the individuals from that group were incorrectly included
in the participant count.

TWC officials, in their response to our Statement of Facts (SOF), stated:

       On April 7, 2006, TWC requested technical specifications for 9104
       Quarterly Performance Report (QPR) reporting categories in order to




U.S. Department of Labor—Office of Inspector General                                     11
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant


       ensure proper reporting. TWC also noted that reporting under the NEG is
       inconsistent with the reporting requirements under TEGL 17-05…On
       December 3, 2006, TWC received clarification on the definition of an NEG
       participant that excluded WorkInTexas.com self-service only customers.
       As a result of the clarification, TWC has revised 9104 QPRs and
       WorkinTexas.com self-service only customers have been removed from
       the NEG participant count….

TWC supplied us with a revised participant count after accepting ETA’s definition of a
NEG participant. The cumulative participant count for the quarter ended March 31,
2006, was revised from 61,397 to 53,835. We did not perform any tests to assess the
accuracy of this later number; however, TWC stated it has removed from that number
the participants who only received self-help services through WIT, which would more
accurately reflect program participation.

The material overstatement of program participants included on the Quarterly Report
has two consequences: (1) the reported performance data, including all performance
activities and outcomes, cannot be relied upon; and (2) the Quarterly Report has
materially overstated the number of program participants. The lack of reliable
performance data hampers ETA’s ability to evaluate Texas’s need for additional grant
funds and the impact that expended grant funds have had.

Exiters Were Understated

From our sample of 120 participants, we identified 78 exiters. However, TWC reported
only 49 of the participants as having exited the program. The TWC failed to report 37
percent (29 of 78) of participants who had or should have been exited from the program
as of March 31, 2006. We reviewed documentation for the 120 participants we tested
and found that 78 of these participants had been exited from the program by program
staff or should have been exited because they had received no documented services for
a period of at least 90 days.

A WIA program exit is defined at TEGL 17-05, 6.B.1, as occurring when a “...participant
has not received a service funded by the program or funded by a partner program for 90
consecutive calendar days, and is not scheduled for future services. The exit date is
the last date of service.”

The Quarterly Progress Report Definitions of Performance Factors, which ETA provided
to TWC shortly after the NEG was awarded, was even more restrictive in its description
of who should be counted as a program exit. The definition states in part:

       …This will include non-positive terminations, those who enter employment
       within the grant period...and those who have received services through the
       NEG and have been transferred to other funding sources....




12                                       U.S. Department of Labor—Office of Inspector General
                                                                 Report No. 04-07-007-03-390
                                                  Audit of the Texas National Emergency Grant




TWC agreed that 22 of 29 participants should have been exited but were not counted in
the exit file for the quarter ended March 31, 2006. TWC stated that it is working to
identify the source of the error that caused these participants to be excluded from the
exit file for the quarter ending March 31, 2006.

For 7 of the 29 participants that we found should have been exited from the program,
TWC officials stated that the participants received a qualifying service within 90 days of
the exit date listed in the TWIST and, therefore, were properly reported in the March 31,
2006, Quarterly Report. We did not find evidence to support that these participants
received any qualifying services beyond what we initially found. In fact, we found a
number of instances where participants were enrolled in September 2005 or October
2005, and for whom there was no documentation of services beyond the date of their
initial enrollment, yet who still remained enrolled as of March 31, 2006.

By not exiting program participants timely, the TWC understated the number of program
exits while overstating the number of participants who were actively receiving program
services. As with the overstated participant enrollments, the failure to timely exit
participants could mislead ETA officials regarding resource requirements of the State of
Texas and the various local workforce development areas within the State.

Performance Results Were Not Supported by Documentation

The TWC could not support the eligibility for 63 percent (75 of 120) of the participants
we tested from the universe of participants reported on both the original and revised
Quarterly Reports for March 31, 2006. For the sample selected from TWC’s revised
March 31, 2006, Quarterly Report, TWC could not support the eligibility for 93 percent
(56 of 60) of the participants we tested.

The lack of documentation was the result of a variety of circumstances:

       • 57 participants (56 from the revised sample) were not enrolled in the NEG
         program. We found no evidence that an eligibility determination had been
         made for these participants or that most had received any services beyond
         self-help employment services;

       • 16 participants were enrolled in the NEG program but we did not find
         independent documentation or self-certification forms to support the
         participants’ eligibility; and

       • 2 participants’ eligibility was supported only with a signed self-certification
         document without further verification by TWC.




U.S. Department of Labor—Office of Inspector General                                       13
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




In October 2005, ETA issued TEGL No. 16-03, Change No. 3, National Emergency
Grant (NEG) Policy Guidance – Use of NEG Funds to Support Disaster Relief
Employment and Training Assistance for Individuals Impacted by Hurricane Katrina.

Section 5.b, includes guidance for the documentation of participant eligibility, which
states in part:

       …Other ways should be used to document eligibility such as self-
       certification or unemployment insurance (UI) or disaster unemployment
       assistance (DUA) information provided by partner programs…The
       grantee must have systems in place to review eligibility determinations
       once the project has begun to operate more routinely and needed
       documentation becomes more readily available. If such systems are in
       place and the grantee subsequently identifies individuals who were not
       eligible to participate as a result of the review, costs incurred prior to the
       determination will not be disallowed.

TWC agreed that eligibility was not documented for most of the 75 individuals we
identified as lacking eligibility documentation. Their response to our Statement of Facts
stated in part:

       TWC agrees that 19 participants’ eligibility may not have been supported,
       based upon the documentation reviewed….

       TWC agrees 50 participants’ eligibility may not have been supported.
       However, all 50 participants were WorkinTexas.com self-service only
       customers who have been removed from the revised 9104 QPRs.

TWC officials disagree that the remaining 6 participants’ eligibility was not supported.
Their justifications for why these participants were eligible vary from the participant
having signed a self-certification document to the local office having verified the
participant’s selective service registration, which is an eligibility requirement for those
males required by law to register for Selective Service.

We disagree that a signed self-certification document or verification of a participant’s
registration with selective service without documentary evidence of eligibility, either
provided by the participant or through independent verification, is sufficient evidence
that a participant is program eligible.

In addition to the participants whose eligibility was not supported, we also found
reported intensive services were not adequately documented. The receipt of intensive




14                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No. 04-07-007-03-390
                                                        Audit of the Texas National Emergency Grant


services, in the form of Job Search Enhanced2, was not supported in 52 percent (29 of
56) of the instances where participants were reported as having received intensive
services.

As required by 20 Code of Federal Regulations (CFR), Section 663.160(b), program
personnel are required to document the need for intensive services in the participant’s
case file using the initial assessment or through the individual's inability to obtain
employment through the core services provided.

The TWC responded to this issue by stating that “…all participants received Job Search
(service code 12)…using the Job Search service code to document receipt of intensive
services is consistent with TWC policy.”

We did not find that TWC’s stated policy to support Job Search services by entering the
service code in TWIST was consistent with program regulations, nor do we believe that
this practice sufficiently supports that any service was actually provided, what such
service(s) may have been, or the outcome of providing the service(s).

TWC’s inability to document eligibility and services for such a large number of the
individuals we tested casts doubt on all of the performance data reported on the
Quarterly Report. TWC reported the 120 individuals in our sample as eligible program
participants. This was done without documentation to support that nearly two-thirds of
these individuals were eligible for program services.

Agency Response

The Texas Workforce Commission (TWC) expressed its concern that the Executive
Summary of OIG’s audit report does not adequately portray the scale of these state-
wide disasters.

TWC disputes that its inclusion of participants who self-served or received informational
services under the NEG is not an over-statement of the numbers of participants served.
The TWC further states that OIG’s report, as currently written, turns its back on the
thousands of impacted individuals desperate for NEG assistance for which they are
legally entitled.

TWC further stated that they promoted the WorkInTexas.com system and that it yielded
a significant number of job postings. They believe that the large number of self-help
customers reflects the success of this effort. The WorkInTexas.com system was even
modified to allow TWC to track participants who received services.


2
 Job Search Enhanced is described as all services that are designed to assist individuals in developing
or enhancing their employment-seeking skills. This assistance can be provided through individual or
group activities that are designed to help the participant secure immediate employment.




U.S. Department of Labor—Office of Inspector General                                                  15
Report No. 04-07-007-03-390
                                                  Audit of the Texas National Emergency Grant




TWC claims that they never asserted that WorkInTexas.com self-service-only
participants were determined eligible and enrolled in the NEG program. TWC stated
that, by virtue of including these individuals in the NEG participant counts, it was
asserting that these individuals were hurricane-affected and received NEG-funded
one-stop services.

OIG Conclusion

The OIG recognizes the scale of the state-wide disasters and acknowledges TWC’s
significant role in serving the needs of the tens of thousands of individuals affected by
the hurricanes.

We disagree with TWC's statement that it properly reported the number of individuals
enrolled in the NEG program. The NEG program is a specially funded program under
the Workforce Investment Act, and program participants must meet certain criteria to be
enrolled. TWC acknowledges in their response that they never asserted that these
individuals were determined eligible or enrolled. Counting all individuals who received
any services from TWC as NEG program participants overstates the level of services
these individuals received. Further, excluding these individuals from the NEG
participant count would not have denied those individuals any services that they
received or were entitled to receive.




U.S. Department of Labor—Office of Inspector General                                        16
Report No. 04-07-007-03-390
                                                  Audit of the Texas National Emergency Grant


Recommendations

We recommend that the Assistant Secretary for Employment and Training ensure that
TWC:

1.     Not report as NEG participants individuals for whom an eligibility
       determination has not been made or individuals who only receive self-help
       services through the WorkInTexas.com system.

2.     Verify that local workforce boards comply with WIA Section 189(h), which
       requires the registration of certain individuals for selective service.

3.     Report NEG program exits consistent with Federal policies as described in TEGL
       17-05 and the ETA 9104 Quarterly Progress Report Definition of Performance
       Factors.

4.     Comply with TEGL No. 16-03, Change No. 3, 5.b, regarding documentation of
       participant eligibility.

5.     Adhere to 20 CFR, Section 663.160(b), which requires program staff to
       document their decision to provide intensive services.




Elliot P. Lewis
December 6, 2006




U.S. Department of Labor—Office of Inspector General                                      17
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                       U.S. Department of Labor—Office of Inspector General
                                                                 Report No. 04-07-007-03-390
                                                  Audit of the Texas National Emergency Grant




Exhibit




U.S. Department of Labor—Office of Inspector General                                      19
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                       U.S. Department of Labor—Office of Inspector General
                                                                 Report No. 04-07-007-03-390
                                                       Audit of the Texas National Emergency Grant


                                                                                          Exhibit A


                           Performance Test Results by Sample Type



                                                                                     Combined
  Overstated:                               Sample 1             Sample 2             Samples

  Not enrolled                                          1                    56                  57

  Not registered for selective service                  2                     0                      2


  Understated:

  Were or should have been exited                      38                    40                  78

  Not reported as exited                               28                     1                  29


  Not Supported by Documentation:

  Eligibility not documented                           19                    56                  75

  Intensive services reported                          43                    13                  56

  Intensive services not supported                     16                    13                  29

   Sample 1 – Sampled from the universe of participants who were reported on both the original and
   revised ETA 9104 Quarterly Report Forms.

   Sample 2 – Sampled from the universe of participants who were uniquely reported on the revised
   ETA 9104 Quarterly Report Form.




U.S. Department of Labor—Office of Inspector General                                                 21
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                       U.S. Department of Labor—Office of Inspector General
                                                                 Report No. 04-07-007-03-390
                                                  Audit of the Texas National Emergency Grant




   Appendices




U.S. Department of Labor—Office of Inspector General                                      23
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                       U.S. Department of Labor—Office of Inspector General
                                                                 Report No. 04-07-007-03-390
                                                      Audit of the Texas National Emergency Grant


                                                                                    Appendix A


BACKGROUND


The NEG Program

The National Emergency Grants (NEG) were established by Title I, Subtitle D, Section
173 of the Workforce Investment Act (WIA).3 The NEGs are discretionary grants
awarded by the Secretary of Labor to provide time-limited funding assistance in
response to significant dislocation events. Eligible dislocation events include natural
disasters as defined by the Robert T. Stafford Disaster Relief and Emergency
Assistance Act. Eligible entities may apply for natural disaster assistance once the
Federal Emergency Management Agency (FEMA) has declared an area eligible for
disaster-related public assistance.

ETA provided guidance to NEG applicants through publication of the NEG application
procedures in Federal Register, Vol. 69, No. 81, dated April 27, 2004, and also through
information available on their internet website. NEG applications for disaster assistance
are made by submitting Standard Form 424 – Application for Federal Assistance. The
application can be considered an emergency application if it is submitted within 15 days
of the FEMA public assistance declaration. The initial application is expected to
address the temporary job creation component. Other services may be provided as
needed, but a fully documented plan or a separate modification request to use NEG
funds to provide the other services is required. The submission of the fully documented
plan should occur at a point in time when an adequate assessment of the various needs
has been made. This occurs generally no more than 4 to 6 months after the initial grant
award. Most grants are funded incrementally, with a maximum level of funding
approved by the Secretary of Labor, but typically a lesser amount is awarded initially.
The balance of funds is awarded after a need for those funds has been supported by
enrollments and expenditures.

Disaster relief grant recipients may provide some or all of the following services to
eligible individuals:

       • adjustment assistance that includes core, intensive and training services as
         authorized at WIA sections 134(d) and 173;

       • supportive services as determined necessary to help workers who require
         such assistance to participate in program activities; and


3
 The WIA was passed by Congress in 1998. It was passed to reform federal job training programs and
create a comprehensive investment system.




U.S. Department of Labor—Office of Inspector General                                            25
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant


       • short-term disaster relief employment.

Hurricanes Katrina and Rita

On August 29, 2005, Hurricane Katrina came ashore along the Louisiana, Mississippi
and Alabama coasts, causing estimated losses of more than $100 billion. President
Bush declared a major disaster for each of these states under the authority of the
Robert T. Stafford Disaster Relief and Emergency Assistance Act, 42 U.S.C., Sections
5121-5206.

The Texas Workforce Commission (TWC) submitted an application for Federal
assistance related to Hurricane Katrina on September 2, 2005, requesting $75 million in
Federal assistance. In their application, TWC officials estimated that 75,000 displaced
victims of Hurricane Katrina would arrive in Texas in need of assistance. They further
estimated that they would serve 37,500 participants at an average planned cost of
$2,000 per participant.4
Congress passed the Flexibility for Displaced Workers Act, P. L. 109-72, on September
23, 2005. This Act established special rules for the NEG related to Hurricane Katrina.
Some of these rules are:

       • Grant funds provided to States that have submitted applications may be used
         for disaster relief employment or other assistance outside the disaster area.

       •   Expanded eligibility for disaster relief employment and other assistance that
           includes individuals who were affected by Hurricane Katrina, including those
           who have relocated from States in which a major disaster was declared, and
           were

           ¾ unemployed at the time of the disaster; or

           ¾ were without employment history.

       •   Temporary employment of eligible individuals was authorized in general
           public sector employment.

       •   Disaster relief employment may be extended beyond the usual 6-month
           maximum duration to an additional 6 months due to the extraordinary
           circumstances.

4
  TWC provided us with a database of NEG participants to support their March 31, 2006, ETA 9104
Quarterly Report. The database included 61,393 unique participants. Of this number, 45,845 were
affected by Hurricane Katrina, 16,947 by Hurricane Rita, and 1,399 were affected by both hurricanes.
The database contained four fewer participants than reported by the TWC. This difference represents
less than .01 percent of the total and the difference was considered immaterial.




26                                            U.S. Department of Labor—Office of Inspector General
                                                                      Report No. 04-07-007-03-390
                                                  Audit of the Texas National Emergency Grant


On September 23, 2005, Hurricane Rita came ashore along the border of Texas and
Louisiana, causing estimated losses of more than $10 billion. President Bush declared
a major disaster for each of these two states.

The Flexibility for Displaced Workers Act was amended by P. L. 109-148, Section 5012,
dated December 30, 2005. The Act was amended by striking “Hurricane Katrina” in
each place it appeared and inserting “hurricanes in the Gulf of Mexico in calendar year
2005”. As related to Texas, this included individuals affected by Hurricane Rita.




U.S. Department of Labor—Office of Inspector General                                      27
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                       U.S. Department of Labor—Office of Inspector General
                                                                 Report No. 04-07-007-03-390
                                                  Audit of the Texas National Emergency Grant


                                                                             Appendix B


Objectives, Scope, Methodology, and Criteria

Objectives

Our overall objective was to answer the following questions:

        •   Were the NEG expenditures allowable, reasonable, allocable, and reported
            accurately?

        •   Were the NEG activities and outcomes reported accurately?

Scope

We audited the $75 million NEG awarded to the Texas Workforce Commission (TWC)
to serve individuals affected by Gulf of Mexico hurricanes in calendar year 2005. The
grant's period of performance was August 29, 2005, through August 31, 2007. We
selected and tested selected reported expenditure and performance data cumulatively
reported through March 31, 2006.

Our audit was conducted in accordance with Government Auditing Standards for
performance audits issued by the Comptroller General of the United States and
included such tests as we considered necessary to satisfy the audit objectives. A
performance audit requires obtaining an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. Fieldwork was conducted from March 21, 2006, through December
6, 2006.

Methodology

To achieve our objectives, we obtained an understanding of relevant internal controls
through inquiries with appropriate personnel and inspection of relevant documents,
policies and procedures at the State and local level. We performed audit work in four
locations:

        •   TWC administrative offices in Austin, Texas;

        •   Worksource-Greater Austin Area Workforce Development Board offices in
            Austin, Texas;




U.S. Department of Labor—Office of Inspector General                                      29
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant


       •   Gulf Coast Workforce Development Board offices in Houston, Texas; and

       •   East Texas Workforce Development Board offices in Kilgore, Texas.

TWC provided us with two ETA 9104 Quarterly Reports for the quarter ended March 31,
2006. The second Quarterly Report revised the performance data reported on their
initial report. The revised report materially altered the performance data reported on the
initial report. Significantly, the revised version reported 61,397 participants, whereas
the original version reported only 42,114. This difference was the result of TWC
counting individuals as participants who only received self-help WorkInTexas.com (WIT)
assistance. The WIT is Texas’s employment services system. Self-help participants
were allowed to identify themselves as hurricane victims in the WIT, which allowed
TWC to distinguish them from regular applicants when providing employment services.

The Quarterly Report includes cumulative financial and performance data from the
inception of the grant up to and including the report quarter. We reconciled the revised
ETA 9104 report with financial data collected at the TWC administrative level and as
electronically reported by Texas’s 28 local workforce boards, and performance data as
collected using The Workforce Information System of Texas (TWIST).

We tested financial transactions at the TWC administrative offices and at 3 of 28 local
WDAs. We also tested participant eligibility and performance data at the WDAs that we
visited. The WDAs we visited (Capital Area, Gulf Coast and East Texas) were
judgmentally selected. The WDAs we visited were selected due to their location, the
amount of grant expenditures reported during our audit period and the types of
expenditures reported. Although we did incorporate random sampling for many of our
tests, we did not use statistical sampling methods for our tests of financial transactions,
participant eligibility or reported performance data; therefore, the results of our tests can
not be projected to their respective audit universes.

As of March 31, 2006, TWC reported total NEG expenditures of $51,951,362. We
selected and tested transactions at four locations with combined reported expenditures
of $20,924,190. We randomly selected transactions to test at the TWC administrative
offices and Capital Area WDA. To maximize our audit resources, we revised our audit
plan after our visit to the Capital Area WDA, and judgmentally selected transactions for
testing at the Gulf Coast and East Texas WDAs. The transactions we tested at the four
locations had combined expenditures of $9,377,350, or 18 percent of total reported
expenditures. The reported expenditures, number of transactions tested, and tested
expenditures by location are displayed in the table found on page 21.




30                                       U.S. Department of Labor—Office of Inspector General
                                                                 Report No. 04-07-007-03-390
                                                  Audit of the Texas National Emergency Grant


                  Reported Grant Expenditures by Locations Audited
                               As of March 31, 2006


                                           Reported           Tested            Tested
   Locations                           Expenditures      Transactions      Expenditures
   TWC Administrative Offices           $ 2,823,092                51       $1,529,186
   Greater Austin Area WDB                3,274,429                85        1,785,296
   Gulf Coast WDB                        11,954,224                37        5,539,183
   East Texas WDB                         2,872,445                50          523,685
   Total                               $20,924,190                223       $9,377,350

We randomly selected a total of 120 participants (40 participants at each of the 3 local
areas we visited) to test the accuracy of reported performance activities and outcomes
for each participant. We selected two samples of 20 participants at each location. One
sample was selected from the universe of participants reported on both the original and
revised Quarterly Reports, and the second sample was selected from the universe of
participants unique to the revised Quarterly Report.

We compared participant eligibility documentation acquired by the local officials for each
participant selected to the NEG eligibility requirements as amended by the Flexibility for
Displaced Workers Act. We tested the accuracy and completeness of the reported
performance data by requesting lists of participants who were said to support each
performance factor on the Quarterly Report. For each sampled participant, we identified
each performance factor on which the participant was included. We then reviewed each
participant’s documentation to determine if he or she was appropriately reported or not
reported for each performance factor.

Criteria

The principal criteria that governed the work performed were as follows:

       •   WIA Section 173, National Emergency Grants (NEG)

       •   WIA Section 195, General Program Requirements

       •   Public Law 109-72, Flexibility for Displaced Workers Act (provided special
           rules for NEG grants for Gulf of Mexico hurricanes in calendar year 2005)

       •   20 Code of Federal Regulations (CFR), Part 671, Federal Regulations
           pertaining to NEG

       •   29 CFR Part 97, Uniform Administrative Requirements for State/Local
           Governments and Indian Tribes



U.S. Department of Labor—Office of Inspector General                                      31
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant


       •   Office of Management and Budget (OMB) Circular A-87, Cost Principles for
           State/Local Governments and Indian Tribes

       •   Training and Employment Guidance Letter (TEGL) NO. 5-05, Waiver Flexibility
           for Hurricane Katrina Recovery

       •   TEGL NO. 16-03, NEG Policy Guidance

       •   TEGL NO. 16-03, Change No. 3, NEG Policy Guidance. Use of NEG Funds to
           Support Disaster Relief Employment and Training Assistance for Individuals
           Impacted by Hurricane Katrina

       •   TEGL NO. 17-05, Common Measures Policy for the Employment and Training
           Administration’s (ETA) Performance Accountability System and Related
           Performance Issues

       •   NEG Application Procedures

       •   Quarterly Progress Report Definitions of Performance Factors




32                                       U.S. Department of Labor—Office of Inspector General
                                                                 Report No. 04-07-007-03-390
                                                    Audit of the Texas National Emergency Grant


                                                                                 Appendix C


Acronyms and Abbreviations

ACS        Affiliated Computer Services, Inc.

CFR        Code of Federal Regulations

ETA        Employment and Training Administration

FEMA       Federal Emergency Management Agency

NEG        National Emergency Grant

OMB        Office of Management and Budget

QPR        Quarterly Performance Report

SOF        Statement of Facts

TEGL       Training and Employment Guidance Letter

TWC        Texas Workforce Commission

TWIST      The Workforce Information System of Texas

WDA        Workforce Development Area

WDB        Worforce Development Board

WIA        Workforce Investment Act

WIT        WorkInTexas.com




U.S. Department of Labor – Office of Inspector General                                      33
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                       U.S. Department of Labor – Office of Inspector General
                                                                  Report No. 04-07-007-03-390
                                                    Audit of the Texas National Emergency Grant




                                                                                 Appendix D




                                    AGENCY RESPONSE




U.S. Department of Labor – Office of Inspector General                                      35
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




36                                       U.S. Department of Labor – Office of Inspector General
                                                                  Report No. 04-07-007-03-390
                                                    Audit of the Texas National Emergency Grant




U.S. Department of Labor – Office of Inspector General                                      37
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




38                                       U.S. Department of Labor – Office of Inspector General
                                                                  Report No. 04-07-007-03-390
                                                    Audit of the Texas National Emergency Grant




U.S. Department of Labor – Office of Inspector General                                      39
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




40                                            U.S. Department of Labor Office of Inspector General
                                                                     Report No. 04-07-007-03-390
                                                    Audit of the Texas National Emergency Grant




U.S. Department of Labor – Office of Inspector General                                      41
Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




42                                       U.S. Department of Labor – Office of Inspector General
                                                                  Report No. 04-07-007-03-390
Audit of the Texas National Emergency Grant




43                                       U.S. Department of Labor – Office of Inspector General
                                                                  Report No. 04-07-007-03-390
